                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




           The Office of Investigations-Office of Inspector General (OIG) initiated an investigation due to
           the significant cost-sharing amount projected by an institution1 and because it appeared that the
           institution had not properly certified its cost-sharing amounts during the award.2 Our
           investigation found no fraud but detected deficiencies in the institution's record keeping systems
           pertaining to cost-sharing. The institution acknowledged deficiencies and notified OIG of its
           efforts towards correcting them. Accordingly, this case is closed.




I'
 NSF OIG Form 2 (1 1/02)
